Record Press Inc., 229 West 36th Street, New York, N.Y. 10018•
Tel: (212) 619-4949• Fax No. (212) 608-3141

STATE OF NEW YORK,
SS:

86458

AFFIDAVIT OF SERVICE

COUNTY OF NEW YORK
Howard Daniels being duly sworn, deposes and says that deponent is not party to the action, and is
over '18 years of age.
That on the 10th day of March 2021 deponent served 3 copies of the within
BRIEF OF OPEN MARKETS INSTITUTE
AS AMICI CURIAE IN SUPPORT OF RESPONDENTS
upon the attorneys at the addresses below, and by the following method:
BY FEDERAL EXPRESS NEXT BUSINESS DAY DELIVERY

Andrew J. Pincus
Mayer Brown LLP
1 999 K Street, NW
Washington, DC 20006
202-263-3220

Steve W. Berman
Hagens Berman Sobol Shapiro LLP
1301 Second Avenue, Suite 2000
Seattle, WA 98101
206-623-7292

At:torneys for Petitioners

Attorneys for Respondents

I, Howard Daniels, declare under penalty of perjury under the laws of the United States of America
that the foregoing is true and correct, executed on March 10, 2021, pursuant to Supreme Court
Rule 29.5(c). All parties required to be
~ ~

serve::u;;;~d.tf)
Howard Daniels

Sworn to me this

March 1 0, 2021
NADIA R. OSWALD HAMID
Notary Public, State of New York
No.010S6101366
Qualified in Kings County
:ommission Expires November 10, 2023

Case Name: National Collegiate Athletic
Association v. Shawne Alston
Docket/Case No: 20-512, 20-520

Notary Public

